DOE F 1325.8
(08-93)
United States Government                                                         Department of Energy


Memorandum
        DATE:    June 8, 2011                                        Audit Report Number: OAS- L-11-04
    REPLY TO
     ATTN OF:    IG-36 (A10LV009)
     SUBJECT:    Audit Report on the "Follow-up Audit of National Nuclear Security Administration's
                 Nuclear Explosive Safety Study Program"
           TO:   Manager, Pantex Site Office

                 INTRODUCTION AND OBJECTIVE

                 One of the primary missions of the Department of Energy's (Department) National
                 Nuclear Security Administration (NNSA) is to maintain the safety, security, and
                 reliability of the nation's nuclear weapons stockpile. Many of the nuclear explosive
                 operations related to this mission, including assembly, disassembly, surveillance,
                 refurbishment, and dismantlement of nuclear weapons, are performed at the Pantex Plant
                 (Pantex) near Amarillo, Texas. Pantex also develops and tests the high explosives used
                 to detonate the nuclear materials. Since 2001, Babcock & Wilcox Technical Services
                 Pantex, LLC (B&W Pantex) has managed and operated Pantex under contract with the
                 Department.

                 The Department requires that a Nuclear Explosive Safety (NES) study be conducted and
                 approved before nuclear explosive operations are performed due to the unacceptable
                 consequences of an accident. NES studies are formal evaluations of proposed nuclear
                 explosive operations to determine the adequacy of controls to prevent inadvertent or
                 accidental detonations or fissile material dispersals. The Department also requires that a
                 NES study be conducted every 10 years for ongoing nuclear explosive operations. In
                 between studies, an operational safety review (OSR) is conducted to observe actual
                 nuclear explosive operations. The Nuclear Explosive Safety Study Group (NESSG)
                 which consists of nuclear safety experts performs the NES studies and the OSRs.

                 In January 2003, the Office of Inspector General (OIG) issued National Nuclear Security
                 Administration's Nuclear Explosive Safety Program (DOE/IG-0581), and reported that
                 comprehensive NES studies had been delayed for six of the nine nuclear weapon types
                 that were active in the nation's stockpile. We initiated this follow-up audit to determine
                 whether NES studies and evaluations of nuclear explosive operations were timely and
                 complete.

                 CONCLUSIONS AND OBSERVATIONS

                 Our review disclosed that all appropriate required NES studies and OSRs were completed
                 and approved by NNSA. However, we noted that most NES studies and OSRs included
issues of concern that were designated as "post-start findings" that remained unresolved
for periods ranging from 5 months to nearly 12 years. According to nuclear explosive
safety experts we spoke with, post-start findings are not considered critical enough to
suspend operations, but do serve to enhance nuclear explosive safety.

                                      NES Studies and OSRs

There are two kinds of NES studies; an operation-specific NES study, and a master study.
Operation-specific NES studies evaluate the procedures, tooling, equipment, testers,
facility interfaces, and controls specific to a weapon type. Master NES studies evaluate
facilities, equipment, tooling, processes and management programs that may be common
to multiple nuclear explosive operations. As of April 14, 2011, the NESSG had
completed and NNSA had approved NES studies and OSRs for eight weapons programs
in the enduring stockpile and for one dismantlement program. Scheduled OSRs had been
completed, approved, and were current for all operating processes. The table below
summarizes the status of operation-specific NES studies and operations.

                             Most       Most
       Weapon Type           Recent     Recent                      Activity/Purpose
                             NES        OSR
                             Study
    B53                       7/10                  Onsite Transportation and Dismantlement
    B61-3/4/10                                      Disassembly, Inspection, Rebuild, and
    B61-7/11                   4/06     1/11          Command Disable Test
                                                    Disassembly and Inspection
    W76-0                      8/00     12/051      Disassembly and Inspection
    W76-1                      4/07                 Assembly, Disassembly and Inspection
    W78                        4/04     12/09       Disassembly and Inspection
    W80                        8/07                 Disassembly and Inspection
    B83                       5/052                 Disassembly, Inspection and Rebuild
    W84                        7/10                 Disassembly and Inspection
    W87                       3/063                 Disassembly, Inspection, and Assembly
    W87 (Addendum)             5/08                 In-Situ Mechanical Safe and Arm Detonator
    W88 (Bay, Satellite)       1/08                 Assembly, Disassembly and Inspection
    W88 (Addendum)             1/09                 Determine Mass Properties (weight, inertia)
    W88 (Cell)                11/08                 Disassembly, Inspection and Rebuild

Our review of NESSG reports and NNSA's approval letters also disclosed that the
NESSG completed and NNSA approved the seven NES master studies affecting current
operations. For example, NES master studies for the code management system; approved
equipment program; bays and cells; onsite transportation and staging; special purpose

1
  Based on the similarities between the W76-0 and W76-1, the NESSG recommended and NNSA approved
that future NES evaluations be concurrent and scheduled based upon the approval date for the W76-1 NES
study.
2
  No ongoing operations for the B83. The B83 is undergoing a tooling upgrade. A NES study is scheduled
in Fiscal Year 2012 in lieu of an OSR to analyze the tooling upgrade.
3
  The W87 OSR is in process. The NESSG completed most of the observations and deliberations in April
2011. Some operations that the NESSG will observe will not be performed until after May 2011.


                                          2
facilities; and support activities had been completed and approved within the last five
years. Additionally, the NESSG conducted an OSR to reevaluate Pantex security and
NNSA approved the OSR report in April 2008.

                                     Post-Start Findings

While these studies were current as the date of our report, we observed that a number of
post-start findings designed to enhance nuclear explosive safety and identified in the
current NES studies and OSR had not been resolved in a timely manner or missed the
original closure dates. As of December 31, 2010, there were 32 open post-start findings;
11 of which were related to operational impacts caused by lightning. Of the 11 lightning
related post-start findings, 9 had missed the original closure dates. The elapsed time that
the lightning related post-start findings had remained open ranged from 31 to 143
months.

According to an NNSA official, the lightning-related findings are technically complex
and a lightning committee has been working for several years to find a resolution to the
lightning related issues. A Pantex Site Office official stated that the site office planned to
close the lightning-related post-start findings because the current controls used for
lightning protection are adequate (one of which was to suspend certain nuclear explosive
operations during lightning warnings) and the Lightning Protection Project Plan would be
used to complete the remaining research and work. As of April 28, 2011, B&W Pantex
had submitted to the Pantex Site Office a proposal to close the lightning-related post-start
findings and also submitted a Lightning Protection Project Plan to disposition the
lightning-related findings. The Pantex Site Office is currently reviewing the closure
request.

Of the 21 post-start findings that are not related to lightning, 19 had missed the original
closure dates and had been open and unresolved from 17 to 63 months. We noted that
Pantex requested numerous extensions for completing the corrective actions for the 19
post-start findings. For example, a finding identified in a W87 NES study had an original
closure date of December 2006. In that case, the completion of the corrective actions had
been extended at least five times. Pantex currently estimates that the corrective action
will be completed by September 2011.

Other than a brief explanation of the due date extensions in the post-start findings
quarterly status reports, Pantex could not provide documentation to show why the
requested extension due dates were not met, how the activity was prioritized, or how the
extended due dates were determined. Pantex's process for assigning, tracking, and
closing findings from NES evaluations require functional managers to notify program
managers if the corrective actions cannot be completed as originally planned and to
provide justification when requesting an extension to the completion date for corrective
actions. Although such justifications for requested extensions were not documented,
according to a Pantex official, the justifications were communicated informally. A
Pantex Site Office official responsible for coordinating the findings from the NES studies
and OSRs for resolution and tracking confirmed that Pantex had informally
communicated the justifications to the Pantex Site Office.



                                      3
                                   Suggested Actions

Given that, for the most part, required NES studies and OSRs were completed and
approved by NNSA, we are not making any formal recommendations. However, given
the emphasis of the Department and NNSA on enhancing nuclear explosive safety, we
suggest that the Manager, Pantex Site Office direct Pantex to improve its processes
regarding post-start findings by:

        Documenting the basis for requests for due date extensions; and,

        Reviewing the reasons why the extended due dates were not met.

Since no recommendations are being made in this report, a formal response is not
required. We appreciate the cooperation of your staff during the audit.




                                    David Sedillo, Director
                                    NNSA & Science Audits Division
                                    Office of Inspector General

Attachment

cc: Director, Internal Controls Management, NA-66
    Director, Office of Risk Management, CF-80
    Team Leader, Office of Risk Management, CF-80
    Audit Resolution Specialist, Office of Risk Management, CF-80
    Audit Liaison, Pantex Site Office




                                    4
                                                                                      Attachment


SCOPE AND METHODOLOGY

We performed the audit between September 2010 and May 2011. We conducted our work at the
National Nuclear Security Administration Service Center (Service Center) in Albuquerque, New
Mexico; the Pantex Plant (Pantex) near Amarillo, Texas; and the Nevada Site Office in North
Las Vegas, Nevada.

To accomplish the audit objective, we:

        Interviewed federal and contractor personnel at the Service Center and Pantex;

        Reviewed Department of Energy (Department) guidance, federal regulations, and
        policies and procedures pertinent to Nuclear Explosive Safety (NES) studies and
        evaluations of nuclear explosive operations; and,

        Reviewed reports on the NES studies and the operational safety reviews, prior audit
        reports, and other documents related to the NES study program.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. Because our review was limited,
it would not necessarily have disclosed all internal control deficiencies that may have existed at
the time of our audit. We also assessed performance measures in accordance with the
Government Performance and Results Act of 1993 and found that the Department had
established performance measures related to the NES study program. We did not rely on
computer-processed data to satisfy our audit objective.

Management waived an exit conference.




                                                5
                                                                    IG Report No. OAS-L-11-04

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

   Your comments would be appreciated and can be provided on the Customer Response Form
